                                                        U.S. Department of Justice

                                                        United States Attorney

                                                        Eastern District of Pennsylvania

                                                        615 Chestnut Street
                                                        Suite 1250
                                                        Philadelphia, Pennsylvania 19106-4476
                                                        (215) 861-8200

                                                        January 6, 2011

                                         NEWS RELEASE

       Joseph Konrad was charged today by Information1 with one count of making false
statements, announced United States Attorney Zane David Memeger. The charges stem from the
defendant’s false representations on FAA Form 8500-8, Medical Certificate Second Class and
Student Pilot Certificate, on October 17, 2007, October 30, 2008, and November 12, 2009.

                      INFORMATION REGARDING THE DEFENDANT
            NAME                             ADDRESS                       AGE OR YEAR OF BIRTH
 Joseph Konrad                     Oreland                                1957

       If convicted the defendant faces a maximum possible sentence of 5 years imprisonment.

       The case was investigated by the Inspector General, U. S. Department of Transportation,
Criminal Investigations, the Federal Bureau of Investigation, and U.S. Immigration and Customs
Enforcement, and is being prosecuted by Assistant United States Attorney Mary Kay Costello.
 UNITED STATES ATTORNEY'S OFFICE                       Contact: PATTY HARTMAN
 EASTERN DISTRICT, PENNSYLVANIA                                 Media Contact
 Suite 1250, 615 Chestnut Street                                215-861-8525
 Philadelphia, PA 19106




       COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT
                            http://www.usdoj.gov/usao/pae




       1
        An Information is an accusation. A defendant is presumed innocent unless and until proven guilty.

                                                   1
